nthony C. Green, Plaintiff - Appellant v. Kelly Lake, Carlton County Sheriff; Kevin Moser, MSOP
Facility Director; Steve Sayovitz, MSOP A-Team Supervisor; Ann Zimmerman, MSOP
Administrator; Nicole Marvel, MSOP A-Team; Greg Swenson, Security Counselor; Elizabeth Barbo,
MSOP - Former Assistant Clinical Director; Anthony Bastien, Carlton County Deputy Sheriff; Jesse
Peterson, Carlton County Deputy Sheriff; Amanda Schaller, Security Counselor, Defendants Appellees
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
2020 U.S. App. LEXIS 4293
No. 19-2001
January 31, 2020, Submitted
February 12, 2020, Filed
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}Appeal from United States District Court for the District of Minnesota.Green v.
Lake. 2019 U.S. Dist. LEXIS 48762 (D. Minn., Mar. 25, 2019)
Counsel

Anthony C. Green. Plaintiff - Appellant, Pro se, Moose Lake. MN.
For Kelly Lake. Carlton County Sheriff, Anthony Bastien, Carlton
County Deputy Sheriff, Jesse Peterson, Carlton County Deputy Sheriff, Defendants Appellees: Susan Marie Tindal, Andrew A. Wolf, IVERSON & REUVERS, Bloomington, MN.
For Kevin Moser, MSOP Facility Director, Steve Sayovitz, MSOP
A-Team Supervisor, Ann Zimmerman, MSOP Administrator, Nicole Marvel, MSOP A-Team,
Greg Swenson, Security Counselor, Defendants - Appellees: James H. Clark, III, Assistant
Attorney General, ATTORNEY GENERAL'S OFFICE, Saint Paul, MN.
Judges: Before SHEPHERD, STRAS, and KOBES, Circuit Judges.
Opinion

PER CURIAM.
Anthony Green, who is civilly committed to the Minnesota Sex Offender Program, appeals the district
court's 1 dismissal of his pro se 42 U.S.C. § 1983 action. Upon careful de novo review, see Montin v.
Moore, 846 F.3d 289, 292, 293 (8th Cir. 2017) (standard of review), we find no error in the district
court's well-reasoned decision. We agree that Green did not state a claim for constitutional violations
stemming from the use of force, see Kingsley v. Hendrickson. 135 S. Ct. 2466, 2473, 192 L. Ed. 2d
416 (2015) (in excessive-force claim, detainee must show that force purposely used against him was
objectively unreasonable);{2020 U.S. App. LEXIS 2) Folkerts v. City of Waverlv. 707 F.3d 975, 980
(8th Cir. 2013) (substantive due process claim requires that defendants violated plaintiffs.fundamental
right and that their conduct shocked conscience); the conduct of strip searches, see Bell v. Wolfish.
441 U.S. 520, 558-59, 99 S. Ct. 1861, 60 L. Ed. 2d 447 (1979) (in determining reasonableness of
search, court considers scope of intrusion, manner and location in which search is conducted, and

A08CASES

l

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. Ail rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

justification for search); Folkerts', 707 F.3d at'980; or his.placement in the High Security Area, see- .
Wong v. Minn. Dep't of Fluman Servs., 820 F.3d 922, 935 (8th Cir. 2016) (plaintiff failed to state
procedural due process claim where complaint made clear that he had opportunity to be heard at
meaningful time and in meaningful manner); Folkerts, 707 F.3d at 980. We also find that the district )
court did not abuse its discretion in denying Green leave to file a second amended complaint. See Pet
Quarters, Inc, v. Depository Tr. & Clearing Corp., 559 F<3d ,772, 782 (8th Cir. 2009).
The judgment is affirmed. See 8th Cir; R. 47B.

_ '

Footnotes

1
The Honorable Ann D, Montgomery, United States District Judge for the District of Minnesota,
adopting the report-and recommendations of the Hdnorable;.Steven E. Rau, late United States.
. -i
Magistrate.Judge for the District of Minnesota.
!.

‘ r

:
;.

‘'

V
’• •’,..

'

•i •

J

t

i'

1

A08CASES

■>

r

2

© 2020’ Matthew Bender & Company, Inc., a rrierfiber of the LexisNexis Group. All'rights reserved. USe of this product is subject-to '
the restrictions and terms and conditions of the Matthew Bender Master Agreement.
' -

K

Anthony C. Green. Plaintiff, v. Kelly Lake. Carlton County Sheriff; Kevin Moser, MSOP Facility
Director; Steven Sayovitz, MSOP A-Team Supervisor; Ann Zimmerman, MSOP Administrator;
Nicole Marvel, MSOP A-Team Supervisor; Greg Swenson, Security Counselor; Amanda Schaller,
Security Counselor; Elizabeth Barbo, MSOP-Former Assistant Clinical Director; Anthony Bastien,
Carlton County Deputy Sheriff; and Jesse Peterson, Carlton County Deputy Sheriff; in their
individual and official capacities, Defendants.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF MINNESOTA
2019 U.S. Dist. LEXIS 48762
Civil No.,14-1056 ADM/SER
. March 25, 2019, Decided
March 25, 2019, Filed
Editorial Information: Subsequent History
Affirmed by Green v. Lake. 2020 U.S. App. LEXIS 4293 (8th Cir. Minn., Feb. 12, 2020)
Editorial Information: Prior History
Green v Lake. 2019 U.S. Dist. LEXIS 49244 (D. Minn., Jan. 30, 2019)
Counsel

{2019 U.S. Dist. LEXIS 1}Anthony C. Green, Pro se.
Susan M. Tindal, Esq., Iverson Reuvers Condon, Bloomington,
MN, on behalf of Defendants Kelly Lake, Jesse Peterson, and Anthony Bastien.
James H. Clark, III, Esq., Assistant Minnesota Attorney General,
Minnesota Attorney General's Office, St. Paul, MN, on behalf of Defendants Kevin Moser,
Steven Sayovitz, Ann Zimmerman, Nicole Marvel, and Greg Swenson.
Daniel P. Kurtz, Esq., League of Minnesota Cities, St. Paul, MN,
on behalf of Defendant Bryce Bogenholm.
Judges: ANN D. MONTGOMERY, UNITED STATES DISTRICT JUDGE.
Opinion
Opinion by:

ANN D. MONTGOMERY
Opinion

MEMORADUM OPINION AND ORDER
I. INTRODUCTION
This matter is before the undersigned United States District Judge for a ruling on Defendants Kelly
Lake. Jesse Peterson, and Anthony Bastien's (the "Carlton County Defendants") Objection [Docket
No. 95] to Magistrate Judge Steven E. Rau's January 30, 2019 Report and Recommendation [Docket
No. 94] ("R&R"). Also before the Court is Plaintiff Anthony C. Green's ("Green") Motion to Accept Late
Submission [Docket No. 96] and Green's Objection [Docket No. 97] to the R&R.
In the R&R, Judge Rau recommends granting the two motions to dismiss filed by Defendants Kevin
Moser, Steven Sayovitz, Ann Zimmerman,' Nicole Marvel,{2019 U.S. Dist. LEXIS 2} and Greg
Swanson (collectively, the "MSOP Defendants") in their official and individual capacities [Docket Nos.

1yhcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

22, 53]; granting the motion to dismiss filed by Defendant Bryce Bogenholml [Docket No. 35]; and
granting the motion to dismiss or for summary judgment filed by the Carlton County Defendants
[Docket No. 66], The R&R also recommends dismissing Green's Amended Complaint [Docket No. 14]
with prejudice. For the reasons stated below, the'Carlton'County Defendants' Objection is sustained,
Green's Motion to Accept Late Submission is granted, and Green's Objection is overruled.
II. BACKGROUND
The background is set forth in the R&R and is incorporated by reference. Briefly, Green is a civilly
committed detainee at the Minnesota Sex Offender Program in Moose Lake, Minnesota ("MSOP").
Am. Compl. [Docket No. 14] U 7. The MSOP Defendants are all MSOP employees. Id. U 8. The
Carlton County Defendants are employed with the Carlton County Sheriff's Office. Id. Defendant Bryce
Bogenholm is the Moose Lake Police Chief. ]d_
Green filed this 42 U.S.C. § 1983 lawsuit on April 11., 2014. Green alleges that Defendants.violated
his rights under the Fourth and Fourteenth Amendments to the U.S. Constitution. The allegations as
taken from Green's Amended Complaint are{2019 U.S. Dist. LEXIS 3} as follows.
On September 28, .2010, the MSOP Defendants handcuffed Green and secured him in an
observation ceil in MSOP's High Security Area ("HSA"). Am. Compl. U 11. Pursuant to MSOP policy,
Green was required To submit to an unclothed visual body strip search ("UVBSS") upon being placed
in HSA. Id. U 43. If a detainee does not consent to the UVBSS, MSOP's polity requires staff to ask the
detainee every 30 minutes for consent to the search. Id. 1] 44. If the detainee still refuses to consent
after four hours, MSOP staff may obtain authorization to perform a non-consenting search that
includes cutting the detainee's clothing off with a scissors. Id. Green refused to consent to a UVBSS.
Jd. fl 11. After four hours, MSOP staff cut and removed Green's clothing to allow a search for
contraband. Id
On March 24, 2011, MSOP employees attempted to prevent Green from entering the MSOP dining
room. jd. H 18. MSOP Defendant Greg Swenson ("Swenson") attacked Green from behind and
shoved him from behind into another MSOP staff member. Id. UU'18-19. During the altercation, MSOP
Defendant Nicole Marvel ("Marvel") twisted Green's handcuffs while trying to remove his shoes and
"Do Rag" and, "did damage{2019 U.S. Dist. LEXIS 4} to [Green's] wrists." Jd 1] 23. The same day as
the March 24 altercation, Green was again placed in HSA. Jd U 12. This time,-he consented to the
UVBSS search. Jd
On June 13, 2012; Carlton County Defendant's Anthony Bastien ("Deputy Bastien") and Jesse
Peterson ("Deputy Peterson") served Green with an arrest warrant at the MSOP facility. Jd j] 26. The
deputies were escorting Green in'handcuffs from the facility when MSOP Defendant Steve Sayovitz
("Sayovitz") informed MSOP Defendant Elizabeth Barbo ("Barbo") that Sayovitz intended to be granted
approval for a UVBSS of Green. Jd UU 26, 28. Deputy Bastien told Sayovitz that he did not agree with
the UVBSS being conducted while Green was in Carlton County's custody and that the UVBSS should
have been performed prior to the deputies' arrival. Jd. Uj] 29, 32, 34. While Deputy Bastien was
advising his supervisor of his concerns, Deputy Peterson removed the handcuffs from Green. Jd HU
32, 34. MSOP Defendants then placed MSOP's handcuffs on Greeri and, without Deputy Bastien's
knowledge, conducted a UVBSS on Green in front of a female staff member. Jd U 27, 32.
In addition to these incidents, Green alleges that MSOP's placement policy authorized{2019 U.S.
Dist. LEXIS 5} MSOP staff to place Green in HSA for extended periods exceeding 24 hours without
due process protections. JdH 13.
Green asserts a claim against the MSOP Defendants for violation of his procedural and substantive

1yhcases

2

© 2020 Matthew Bender & Cornpahy, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

b
V*

due process rights under the 14th Amendment (Count I), a claim against all Defendants for illegal
search and’seizure in violation of the Fourth Amendmenf (Count II), and a claim against'all
• Defendants for.excessive force in violation of the Fourth Amendment (Count III). Green also alleges
that MSOP's client search and protective isolation policies are unconstitutional, Am.’Cojnpl.
50, 57
The R&R recommends dismissing all of Green's claims for failure to state a plausible claim for'relief.
R&R at 12-21.
Ill, DISCUSSION

•; :

A. Standard of Review

t

In reviewing a magistrate judge's report and recommendation,' the district-court "shall make a de novo
determination of those portions of the report or specified proposed-findings or recommendations to
which objection is made." 28 U.S.C. § 636(b)(1)(C); see also D. Minn. L.R. 72.2(b). A district judge
"may accept, reject, or modjfyHrvwhole orih paft, the findings or recommendations made by the
:
1 • i.:-.- f
-magistrate judge." Id,:•
i

B. Carlton County Defendants’ Objection
The Carlton County Defendants ask .the Court to adopt the.R&R with one modification.{2019 U.S.
Dist. LEXIS 6} In addressing Green's claims that he was subjected to an unlawful UVBSS on June
13, 2012, the R&R states, "Green does npt allege.that the search itself was done by a female staff
member; he admits Peterson, the male Dpputy Carlton .County Sheriff performed the search," R&R at
17. The Carlton Cpunty Defendants argue that,tfie record establishes Deputy Peterson, did not
conduct the searqh and did not allow staff,from the MSOP to perform the search while Carlton | .
County's handcuffs were on Green. The.Carltqp'County Defendants thus request that this Court remove any reference to Deputy Peterson conducting the search.

*TT

J

The Court agrees.with the.Caiilton County Defendants that the Amended Complaint and the record
lack any. indicatiqn that Deputy .Peterson c.onducted the search. Paragraph 27.of the Amended.
Comp,Jaint alleges that staff from MSOP, .rathe!;,.than Deputy Peterson, performed the alleged search:
Defendant Peterson assisted the strip search'by removing [Carlton County's] handcuffs arid ■■ allowing MSOP Defendarits to place their handcuffs on Plaintiff arid conducted the forced* • >
’ unclothed'full body cavity strip seardviri front of female staff and;an MSOP nurse. MSOP' h.
Defendants held Plaintiff down and forcibly{2019 U.S. Dist. LEXIS 7} cut his clothes off,
humiliating him jn the presence of female staff.Further, Green clarifies in his .opposition to the
Carlton County Defendants' Motion.to Dismiss that the "Carlton "County [Defendants] did not .
participate ip the strip search," 'andvthat."they called their supervisor because they disagreed .with
MSOP Defendants conducting a strip search." See PI.'s,Reply Mem. Law Resp. Carlton County
Defs.' Reply [Docket No. 78] at 2. Thus,, the findings in the R&R are modified to remove any.,,
reference to Deputy Peterson conducting the search.
...
"r

.

C. Green's Motion to Accept Late Submission
J r

s

-•

■ -

i

. '
.

,

Green asks the Court to accept his tardily filed Objection to the R&R. The R&R was entered on
Wednesday, January 30, 2019. Green states-^hat he received the R&R in the mail'on Monday,
February 4, 2019. Under Federal Rules of Civil Procedure 6(a)(1)(C) and 72(b)(2), Green had until
February 19,.20-1'9'to mail'his Objection. Green did not mail his=Objection until'February 20, 2019:
‘^Defendants do not argue that they were prejudiced by the one-day-delay in filing. The Court grants'the
motion to accept Green's tardily filed Objection.
D. Green's Objectibn

lyhcases

.

r .

j.'

*. i

3

© 2020 Matthew Bender & Company, Inc, a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement,

4

' rT

'
\ V

t

i

Green objects to the portions of the R&R .thatconclude he has failed to state a claim for excessive
force, procedural{2019'U.S,. Dist. LEXIS 8}-due process, ahd substantive due process. Obj. at 5-17.
Green also argues that the R&R incorrectly concludes that Defendants are entitled to qualified
immunity. Id. at 19-20. Green alternatively requests leave to amend the Amended Complaint to cure
any deficiencies. Id. at 4-5, 17-19'.
1. Excessive Force Claims
Green argues that the R&R erroneously concluded the'.Amended Complaint fails to state a claim for
excessive force. Green contends that the case .must proceed so that the record can be develpped
regarding whether Defendants'actions were objectively.reasonable.
Excessive force claims brought by civilly committed individuals are analyzed under the same standard
as pre-trial detainees. Andrews v. Neer, 253 F.3d'1052, <1061 (8th Cir. 2001). To bring a claim forexcessive force under § 1983, "a pretrial detainee must show . /..that the force purposely or knowingly
used against him was objectively unreasonable." Kingsley v. Hendrickson. 135 S., Ct 2466, 2473, 192
L. Ed. 2d'416 (2015); Ryan v. Armstrong. 850 F.3d 419, 427 (8th Cir. 201"7). Whether the force.used
vyas objectively unreasonable "turns on the facts and circumstances of each particular case."
Kingsley, 135 S. Ct. at 2473 (quotations omitted): Relevant factors include the relationship between
the need for force and the amount of force used, the extent of the plaintiffs injury, efforts by the officer
to limit the amount of force, the severity of the security problem, the threat{2019 U.S. Dist. LEXIS 9}
reasonably perceived by the officer, and whether the plaintiff.was resisting. Id. "A court must also
account for the legitimate interests that stem from the government's need to manage the facility in
which the individual is detained, appropriately deferring to policies anil practices that in the judgment
of jail officials are needed to preserve internal order and discipline and to maintain institutional
security." jd. (internal quotations and alterations omitted).
The reasonableness of the force used "must be judged from the perspective of a reasonable officer
on the scene, rather than with the'20/20 vision of hindsight." Graham v. Connor, 490 U.S. 386, 396,
109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989). "Not every push or shove, even if it may later seem
unnecessary in the peace of a judge's chambers, violates the Fourth Amendment. The calculus of
reasonableness must embody allowance for the fact that. . . officers are often forced to make
split-second judgments-in circumstances that are tense; uncertain, and rapidly evolving-about the
amount of force that is necessary in a particular situation." jd. at 396-97 (internal citation'omitted).
Because § 1983 liability is personal, each defendant's conduct must be independentlyassedsed.
Wilson v. Northcutt. 441 F.3d 586, 591 (8th Cir. 2006). .
The Amended Complaint alleges that Defendants Swenson and Marvel{2019, U.S. Dist. LEXIS 10}
used excessive force on Green during the March 2011 altercation when Swenson shoved Green from
-behind into another MSOP staff member, and Marvel twisted Green's handcuffs while trying to remove
his Do Rag and shoes. Am. Compl.
18-20, 23. The'R&R concluded that'these actions did not rise
to the level of an excessive force claim because Green did not allege painful or lasting injuries from
the actions. R&R at 12-13.
Although Green's failure to allege more than de minimis injury is not dispositive,2 it suggests that the
force used by Swenson and Marvel was de minimis.. See Chambers v. Pennycook, 641 F.3d 898, 907
(8th Cir. 2011) ("A de minimis use of force is insufficient to support a claim, and it may well be that
most plaintiffs showing only de minimis injury can show only a corresponding de rtiinimis use offorce.") (internal citation omitted). Additionally, the facts alleged do not suggest that the amount of
force used was unreasonable in relation to the force-required. Swenson' shoved' Green 'from behind
into another person while attempting to deny Green access to the'dining hall. Marvel twisted Green's

lyhcases

4

© 2020 Matthew Bender & Company, Inc/ a member of the LexisNexis Group. All rights reserved. Use of this product is subject to'
the restrictions and terms and conditions of the Matthew Bender Master Agreement.
■
> .

i'

handcuffs, but did so while trying to maintain security by removing Green's shoes and head wear.
Thus the allegations in the Amended Complaint, assumed{2019 U.S. Dist LEXIS 11} as true, do not
establish that the particular force used by Swensonand Marvel under the circumstances was
objectively unreasonable. .
f' •

Even if Green could state a plausible'claim against Swenson or Marvel for excessive force, they
would be entitled to qualified immunity. "An officer enjoys qualified immunity and is not liable for
excessive force unless he has violated a clearly established right, such that it would have beenclear
to a reasonable officer that his conduct was unlawful in the situation he.confronted." Kingsley, 135 S.
' Ct. at’2474 (quotations omitted). Prior to the Eighth Circuit's .'June 2011 decision in Chambers v. •
PennvCook, ”[i]t was not clearly established .'. '."'that an officer violated the rights of an arrestee [or
detainee] by applying force that causedonly de minimis injury." 641 F.3d at 908. The force used by
. :Swanson did .not cause any injury, and the.-force used by Marvel caused only de minimis injury. Thus,
at the time of the March 2011 incident alleged by Green, it would not have been clear to a reasonable
officer that the force used by Swanson and .Marvel was unlawful.
.
;
' Green also appears to allege an excessive'fbrce-.claim against Defendant Sayovitz based on
Sayovitz's informing MSOP Defen'da'rit{20i 9 U.S. Dist. LEXIS 12} Barbo on June 13, 2012 that
Sayovitz intended to be.given'approval to. conduct a U VBSS on Green..Am.'"Compl. fi 28. This
allegation does not state a claim for excessive force because "’[y]erba'l threats are not constitutional
violations cognizable under § 1983." Martin.v'. Sargent, 780 F.2d 1334, 1338 (8th Cir. 1985).
2. Unreasonable Search and Seizure Claims
•

:

-

* 1

*•

1!

0=

’!

. I

.

.

:

'

Green also objects to the R&R's recommended dismissal of his unreasonable search and seizure,
claims. Green contends that the facts must .be developed ^determine whether the unclothed visual
searches were conducted in a reasonable manner, and whether it was reasonable to confine Green to
HSA and handcuff him for four hours while in HSA.
- •< i

The Court agrees with the conclusion in the.R&R that the facts alleged in the Amended Complaint do
not establish .that the searches-and seizures. were.4J.nreason.gble. MSOP's policy.requires unclothed
body searches when a detainee enters a newjsecurity area within .MSOP or leaves the MSOP facility.
Am. 6ompl. 43. This policy advances the interests of institutional security and public safety by,
ensuring that a. detainee is not smuggling drugs, weapons, or other contraband. See Beaulieu v.
Ludeman. 690 F.3d 1017., 1030.(8th Cir. 2012) ,('![T])ie MSOPjs policy-of.performing .unclothed body
searches of patients .before they leave the{20:19 U.S. Dist. LEXIS 13} secure perimeter is not
unreasonable."); Story v, Foote. 782 F.3d 968,:9.7-1 (8th Cir. 2015) (stating that '^detention facilities are
fraught with serious security dangers," and "correctional institutions have a strong interest in
preventing and deterring the smuggling of money, drugs, weapons, and other Contraband").
. Green has not alleged any facts to suggest that the searches were conducted, unreasonably. Although
MSOP qtaff cut off his clothes with a scissors vwhen -performing the September 2010 and June 2012
searches, the actions were reasonable and appropriate because Green refused to comply with the
searches. Am. Compl.
11, 34. Additionally, although the June 2012 search was allegedly ..
conducted in front of female staff, this allegation does not render the search unreasonable. See Story,
782 F.3d at 972 (upholding reasonableness' of’body Cavity search that may have been viewed by afemale correctional officer through a security camera)-.3
Green also fails tq alleged.facts suggesting that his placement in HSA or remaining in handcuffs for
fo.ur hours amounted to.unreasonable seizures.-The, decision to place a civilly.committed individual in
HSA is presumptively valid if made by a professional. Younqberq v, Romeo. 457 U.S. 307,.323, 102
S. Ct. 2452, 73'L. Ed„ 2d 28 (1982). "[L]iabi.l.ity may.be imposed oqly when the decision by th.e{2pi9

lyhcases

5.

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All, rights reserved. Use pf this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement..
v

■ »!

i

•»

>•

i

U.S. Dist. LEXIS 14} professional is such a substantial departure from accepted professional
judgment, practice, or standards as to demonstrate that the person responsible actually' did not base
the decision on such a judgment." id. Green alleges no facts to show that his confinement in HSA was
a departure from accepted practice or was not based on professional judgment. Thus, his
confinement in HSA was'not an unreasonable seizure.
'
Green's allegation that he was handcuffed for four hours on September 28, 2010 also. does notamount to an unreasonable-seizure. During this time, MSOP employees were waiting for Green to
consent to a UVBSS. Am. Compl. 44. While Green refused to submit to a UVBSS, it was
reasonable for MSOP staff to keep him handcuffed until he could be examined for weapons or other
contraband.
To the extent that Greerfalleges an unlawful seizure Claim against the Carlton County Defendants
based on their arrest of Green on June 13, 2012, this Claim fails because the Amended Complaint
states that the Carlton County Defendants served 'Green with an arrest warrant. Am. Compil. 13. "An
arrest executed pursuant to a facially valid warrant generally does not give rise to a cause of action
under 42 U.S.C. § 1983 against{2019 U.S. Dist. LEXI$ 15} the arresting officer." Fairv. Fulbriqht. 844
F.2d 567, 569 (8th Cir. 1988).
3. Procedural Due Process Claims
Green next objects to the R&R’s recommended dismissal of his procedural due process claims.
Green argues that his confinement in HSA for more than 24 hours and being handcuffed for four
hours implicate protected liberty interests.
"To set forth a procedural due process violation, a plaintiff, first, must establish that his protected
liberty or property interest is at stake. Second, the plaintiff must prove that the defendant deprived him
of such an interest without due process of law." Schmidt v. Des Moines Pub. Sch., 655 F.3d 811, 817
(8th Cir. 2011).
"
'
■"
In determining whether an official action has deprived a confined person of a protected liberty interest,
a court must inquire whether the official action impos.ed an "atypical and significant hardship on the,
[confined person] in relation to the ordinary incidents of [confined] life.". Wilkinson v. Austin, .545 U.S.
209, 223. 125 S. Ct. 2384, 162 L. Ed. 2d 174 (2005) (quoting Sandin v. Conner. 515 U.S. 472, .484,
115 S. Ct. 2293, 132 L. Ed. 2d 418 (1995)). Civilly committed persons are entitled to "more
considerate treatment and conditions of confinement" than prisoners, but a civilly committed person's
liberty interests are "considerably less than those held by members of free society." Sentv-Hauqen'v.
Goodno, 462 F.3d 876, 886 (8th Cir. 2006). Green's placement in HSA for more than 24 hours and
being handcuffed for four hours did not impose a significant and{2019 U.S. Dist. LEXIS 16} unusual
hardship in relation to the ordinary incidents of life at a secured facility such as MSOP.
Additionally, even if Green had sufficiently alleged a that he was deprived of a protected liberty
interest, he does not allege any facts to show that he received less process than was due. For
example, he does not allege that he invoked MSOP's grievance procedure to challenge his HSA
placement. See Am. Compl. j] 45 (outlining MSOP's grievance procedure for challenging placement in
HSA).
4. Substantive Due Process Claims
Green also objects to the R&R’s recommendation that his substantive due process claims be
dismissed. To plead a claim for substantive due process-, a plaintiff must allege facts showing the
defendant's actions were "conscious shocking" and violated a "fundamental liberty interest." See
Karsiens v. Piper, 845 F.3d 394, 408 (8th Cir. 2017) (specifying standard for substantive due process

lyhcases

6

© 2020 Matthew Bender & Company,' Inc., a member of the texisNexis Group. All rights reserved. Use of this product is subject to '
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Is
V

claim). The R&R correctly applied this standard.and-concluded that Green has not alleged conduct by
.Defendants, that shocked the conscience.
5. Constitutional Challenge to MSOP Policies .
,

:

- "

'• . 1-..

il.:..
-

-.

'

The R&R recommends dismissing with prejudice Green's claim that MSOP's UyBSS policy is
unconstitutional. Green requests that the R&R be modified to dismiss the claim{2019 U.S. Dist.
LEXIS 17} without prejudice so that he may have an opportunity to cure the deficiencies in the
Amended Complaint. This request is denied because Green does not specify what additions or •
corrections he would or could make that would cure'the deficiencies.
6. Qualified Immunity
Green genprically argues that.Defendants are not entitled.to qualified immunity,because he has
alleged facts supporting his .claims that Defendants'conduct violated his clearly established
constitutional .rights..This argument fails because the Amended Complaint does not allege sufficient
facts to establish that Green's constitutional Tights were violated by any Defendant.
7. Request to File Second Amended Complaint
Finally, Green requests leave to amend the Amended Complaint to give him an opportunity to "correct
any deficiencies." Obj. at 19. Rule 15(a) of the Federal Rules of Civil Procedure instructs that'leave to
amend the complaint be given freely, if justice so requires. Fed, R. Civ. P. 1.5(a). However, a court has
discretion to deny leave to amend.under any of the following circumstances: "undue delay, ,bad faith or
dilatory motive on the part of the movant, repeated failure to cure deficiencies by amendments
previously allowed, undue prejudice to the opposing party by virtue of allowance of the
amendment,{2019 U.S. Dist. LEXIS 18} [or] futility of [the] amendment." Foman v. Davis. 371 U.S.
178. 182,-83 S. Ct. 227. 9 L. Ed. 2d 222 (1962):
Green has already amended his Complaint once, and there is no indication that he will be able to cure
the deficiencies in the Amended Complaint by amending his Complaint a second time. Green does
not identify what, if any, additional facts he would allege that would be sufficient to "state a claim to
relief that is plausible on its face:" Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 555,'570, 127 S. 'Ct. 1955,
167 L. Ed. 2d -929 (2007). Based on Green's'pleadingsthus far; it appears that a second amended
complaint would be futile. Although :the Court-re'cognizes Green's pro se status, justice does not.
require leave to once again amend the Complaint. ';l
IV. CONCLUSION
Based upon the foregoing, and ail the files, records, and proceedings herein, IT IS HEREBY
S
ORDERED that:

—

1. Defendants Kelly Lake, Jesse Peterson, and Anthony Bastien's Objection [Docket No. 95] to
the R&R is SUSTAINED;
2. Plaintiff Anthony C. Green's Motion to Accept Late Submission [Docket No. 96] is GRANTED;
3. Green's Objection [Docket No. 97] to the‘R&R is OVERRULED;
4. The Report and Recommendation [Docket No. 94] is ADOPTED IN PART and MODIFIED IN
PART as stated above;
5. Defendants' Motions'to Dismiss [Docket Nos. 22, 35, 53, and 66] are GRANTED: and
6. The Amended Complaint [Docket{2019 U.S. Dist. LEXIS 19} No. 14] is DISMISSED WITH
;
PREJUDICE

1yhcases

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

t*

t
J

LET JUDGMENT BE ENTERED ACCORDINGLY.
BY THE COURT:
/s/Ann D. Montgomery
ANN D. MONTGOMERY
U.S. DISTRICT JUDGE
Dated: March 25, 2019.
Footnotes

1
The caption of the First Amended Complaint [Docket No. 14] does not include Bryce Bogenholm as a
named defendant, but Paragraph 8(j) of the First Amended Complaint lists "Bryce Bogenhol [sic]" as a
defendant in this case.
2
In June 2011, the Eighth Circuit Court of Appeals clarified that "there is no uniform requirement that a
plaintiff show more than de minimis injury to establish an application of excessive force." Chambers v.
Pennvcook. 641 F.3d 898, 907 (8th Cir. 2011). The Chambers Court reasoned that "[t]he degree of
injury should not be dispositive, because the nature of the force applied cannot be correlated perfectly
with the type of injury inflicted. Some plaintiffs will be thicker-skinned than others, and the same
application of force will have different effects on different people." id. at 906. However, the degree of
injury is relevant to show the amount and type of force used. Id.
3
To the extent that Green alleges a claim against the Carlton County Defendants for failure to prevent
the June 2012 search, the claim fails because the search itself was constitutional. See Anderson v.
City of Hopkins. 805 F. Supp. 2d 712, 721 (D. Minn. 2011) ("[A] claim against an officer under § 1983
for failure to intervene or prevent harm necessarily assumes another officer violated plaintiffs
constitutional rights."). Further, the Carlton County Defendants lacked the means to prevent the
search from occurring because the search was performed on a MSOP detainee in an MSOP facility by
MSOP staff pursuant to MSOP policy.

lyhcases

8

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

;#v

Anthony.C. Green, Plaintiff, v. Kelly Lake; Kevin Mbser, Steven Sayovitz, Ann Zimmerman, Nicole
Marvel, Greg Swenson, Elizabeth Barbo, Bryce Bogenhoh Anthony Bastien^ Jesse Peterson, Jesse
Berglund, Amanda Shaller, in their individual and official capacities, Defendants,
v UNITED STATES DISTRICT COURT FOR THE DISTRICT OF MINNESOTA
2019 U.S: Dist. LEXIS 49244
Case No; 14-CV-1056 (ADM/SER)
January 30, 2019, Decided
January 30, 2019, Filed
1 r

Editorial Information: Subsequent History
Modified by, in part, Adopted by, in part, Objection sustained by, in part, Objection overruled by, Dismissed
by Green v. Lake. 2019 U.S. Dist. LEXIS 48762 (D. Minn., Mar. 25, 2019).
.
;{2019 U.S. Dist. LEXIS 1}Anthony C. Green, Pro se.
Counsel. .
For Kelly Lake. Anthony Bastien, and:. Jesse • Peterson,
Defendant: Susan M. Tindal, Iverson Reuvers Condon.
For Kevin Moser, Steven Sayovitz, Ann Zimmerman, Nicole
Marvel, and Greg Swenson, Defendants: James H. Clark III, Minnesota Attorney General's
Office.
For Bryce Bogenhol, Defendant: Daniel P. Kurtz, League of
Minnesota Cities.
Judges: Steven E. Rau, United States Magistrate Judge.
..

i

■

.

.

.*

•.

!

'

Opinion
Opinion by:

Steven E. Rau
Opinion

REPORT AND RECOMMENDATION
STEVEN E. RAU, United States Magistrate Judge
This matter is before the Court on Defendants' motions to dismiss Plaintiffs' Amended Complaint. 1
(ECF Nos. 22, 35, 53, 65). This matter was referred for the resolution of pretrial matters pursuant to
28 U.S.C. § 636 and District of Minnesota Local Rule 72.2. For the reasons stated below, this Court
recommends Defendants' motions be granted and this matter be dismissed with prejudice.
I. BACKGROUND
A. Procedural Background
Plaintiff Anthony C. Green is civilly committed to the Minnesota Sex Offender Program ("MSOP") in
Moose Lake. Minnesota, He initiated this lawsuit on April 11, 2014 asserting various constitutional
claims against numerous defendants. (ECF No. 1). This case was then stayed pending resolution of a
motion for class certification{2019 U.S. Dist. LEXIS 2} by individuals civilly committed to MSOP. (ECF
No. 5). Upon court order, Green amended his complaint on July 8, 2016. (ECF Nos. 13, 14). Green's
amended complaint asserted the same claims, added further supporting facts, and removed some

lyhcases

1

© 2020 Matthew Bender & Company, Inc., a member of .the LexisNexis Group. All rights reserved. Use of this.product is subject,to
the restrictions and terms and conditions of the Matthew. Bender.Master Agreement.
,

.d!1

defendants. (Am: Compl., ECF No1. 14). The stay was lifted on April 14, 2016 and Defendants ;
Bogenhol, Bastien, Lake Peterson, Moser, Linked, Marvel, Swenson, and Sayowitz filed motions to
dismiss. (ECF Nos. 12, 13, 22, 35, 53; 66), The case was stayed again on June 30,2017 because it
was deemed sufficiently related to Karsjens, et al. v. Piper, etai, Case No. 11-cv-3659 (DWF/TNL).
(ECF No. 79). The new stay was lifted on October 22, 2018. (ECF No. 86). The Court permitted the
parties to file supplemental 'briefing.addressing any changes in law-that may affect the Court's analysis
of the already-submitted motions to dismiss, (ECF No. 87), The parties submitted their supplemental
briefs and the motions are ripe for determination, (ECF Nos.-89, 90, 9 V93).2
B. Factual Allegations
1. Unreasonable Search and Seizure
Green claims he was subjected to illegal searches and seizures on multiple occasions at MSOP. On
September 28, 2010,(2019 U.S. Dist. LEXIS 3} Green claifns’he Was forcibly subjected fo an
unclothed visual body strip search ("UVBSS")3 in an observation cell for contraband,.which was never
found. (Am. Compl., at.5), He claims another UVBSS was performed again on March 24, 2011 by
MSOP officers in-full riot gear. (Am. Compl., at 5). Green alleges that unidentified MSOP employees
"allowed A-Team members and,unit staff to attack Plaintiff without cause or provocation" and that he
was thrown to the ground and choked by an MSOP employee. (Am. Compl., at 8). Green claims he
refused the UVBSS during the first incident and had his clothes forcibly cut off, and claims he
disagreed with the UVBSS but complied in the second incident. (Am. Compl., at 5).
On June 13, 2012, Green claims MSOP employees again forced'ari UVBSS on him'while the Carlton
County Sheriff effected Green's arrest. (Am. Compl., at 10). He claims th’is'search, "humiliate[edj him
in the presence of female staff." (Am. Compl., at 11). Green states MSOP employees "stormed into
the visiting room in full riot gear and attacked plaintiff from behind" while he was handcuffed. (Am. ‘
Compl., at 12). Green claims Defendant Barbo, an MSOP Assistant Director, "had no reasonable1 1
suspicion{2019 U.S. Dist. LEXIS 4} or justification to approve the unconstitutional strip search" arid
that Green was not resisting, was not fighting back, and not threatening" during the entire incident,
(Am. Compl., at 11-12).
Green also claims his placement in Protective Isolation/Administrative Restriction ("AR status") for
extended periods of time over twenty-four hours violates his Fourth Amendment rights.4
2. Unconstitutional Policies
Green's complaint repeatedly states that MSOP policies were applied to him unconstitutionally, failed
to support a legitimate government interest, and did not provide him proper procedural protections. He
identifies "Relevant MSOP Policies" and summarizes the contents of these policies'. (See Am. Compl.,
at 16-19). Green explains that an individual at MSOP may be placed on AR status in the High Security
Area ("HSA"), that an individual on AR status has a right to appeal this status and her/his conditions
during that time, and under what circumstances AR status must be discontinued. (Am. Compl,, at
16-19). Green also explains MSOP's policy on UVBSS: the manner in which they should be
performed, and the steps MSOP must follow if an individual refuses an UVBSS. (Am. Compl., at 18).
Finally, Green explains{2019 U.S. Dist. LEXIS 5} that MSOP policy does not allow individuals to call
their attorneys. (Am. Compl., at 19).
I' •

3. Due Process and Excessive Force

Green argues MSOP staff placed him in HSA for extended periods of time without due process ■,.■
protections. .(Am. Compl.. at 6). He claims he should have had some form of hearing before being .
placed in HSA because it violated his liberty interests. (Am. Compi., at 7).

lyhcases

1

© 2020 Matthew Bender & Company; Inc., a member of the LexisNexIs Group. All rights reserved. Use of this product is subjectto
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Green claims Defendant Marvel used-excessive force when restraining him during the March 24,
2010 incident. (Am. Compl, at 9). Greeri states that "Marvel; while-trying to remove Plaintiffs Do Rag
;and shoes, twisted the handcuffs anddiddamage to Plaintiffs wrists." (Am. Compl., at'9).
4. Other Concerns
■ "vGreen argues his Fourth and FourteenthArhehdrrient rights:were violated when he was denied
; access to his property while in HSA. (Am. Compl., at 6V.: Green'argues the following restrictions while
he was in HSA were illegal: only being allowed one book 'at a time, being served meals in his cells, not
being allowed to participate in any off unit activities, and being restricted to one thirty-minute period
outside his cell per day. (Am. Compl., at 6).
C. Specific Factual Allegations Against Defendants
1. Defendants Berglund, Moser, Zimrp.erm.ain,{2019 U.S. Dist. LEXIS 6> Lake, Boqenhol
Greeh states Moser is the Director of MSOP, Zimmerman is the Program Manager for MSOP, Lake is
the Carlton County Sheriff, and Bogen'hol is the Moose Lake Police Chief. (Am. 'Compl., at 3-4). Aside
from being listed as a party to the Iaw&liit, -h0he Of these Defendants are' mentioned anywhere in the
complaint. The Court does not addresS'tRecdmplaint for claims against these Defendants because
Green does not allege they were personally involved or responsible for any" constitutional violations.5
2. Defendant Sayovitz

• :V

Green states S,ayovitz was an A-Team .Supervisor at MSOP. (Am. Compl., at-4). Green claims
Sayovitz "informed Assistant director,[sic],Defendant Barbo about his intention to be granted approval
for the ,'unclothed visual body search.'" (Am.:. Compl; at 11). Green also states Defendant Sayovitz
told him "Anthony you brought this,on. yourself.; A/Ve're going to remove the Police cuffs, and place our
cuffs on you." (Am. Compl., at 3,2). Green.alleges Defendant Sayovitz "implemented, retained, and
carried out policies,that violated the,constitutional,rights of Plaintiff." (Am. Compl, at 11).
3. Defendant Marvel
Green states Marvel is an A-Team member at MSOP. (Am. Compl, at 4).{2019 U.S. Dist. LEXIS 7}
Green claims Marvel filed a false incident report "accusing Plaintiff of pushing her into a brick'wall and
sustaining injuries." (Am. Compl, at 9). He claims Marvel used excessive force to cause harm to him,
such as when Marvel "twisted the handcuffs and did damage to Plaintiffs:wrist$." (Am. Compl, at 9).
Green alleges that Marvel implemented, retained, and carried out policies that violated the
constitutional rights of Plaintiff" (Am. Compl, at 8).
4. Defendant Swenson
- Green' states Swenson is a Security Counselor a'TMSGP. (Arm. Compl, at 4). Greeh alleges Swenson
"attacked Plaintiff from behind" and “shoved Plaintiff from behind" on-March 24, 2010. (Am. Compl, at
8).He also alleges Swenson filed a false report On the March incident by stating Green was out of
control. (Am. Compl, at 8). Green firially alleges Swenson "implemented, retained, and c'arried out
policies that violated the constitutional rightS of Plaintiff.""(Am. Compl.at’8)'.
5. Defendant Schaller
Green states Schaller is a security counselor at MSOP. (Am. Compl... at 4)..Green claims,Schaller
"omitted the attack by Defendant Swenson" in her report of the incident that happened on March 24,
2010: (Am. Compl, at 9) {2019 U.S. Dist. LEXIS81 Green alleges ScWajTer",implemented, retained,
andcarried Out policies that violated the'constitutional rights ofPlaintiff."‘(Am.Compl, at'9). ’
1r

lyhcases

3.

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All .rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement,

rf

6. Defendant Bastien
Green states Bastien is a Deputy Carlton County Sheriff. (Am. Compl., at 4). Green alleges Ba,stien
refused to "file criminal charges against MSOP employees for sexually assaulting him-." (Am. Compl.,
at 23-24). Green claims "Defendant Bastien never booked Plaintiff into the jaik.underthe booking and
fingerprinting process." (Am. Compl., at 15), Green alleges Bastien "implemented, retained, and
carried out policies that violated the constitutional rights of Plaintiff." (Am. Compl., at 15).
:
7. Defendant Peterson
Green states Peterson is a Deputy Carlton County Sheriff: (Am. Compl., at 4). Green alleges
Peterson removed Green's handcuffs so MSOP staff could place handcuffs on Green, and that
Peterson "picked up the phone and stated: 'Ok, I understand, alright.'" (Am. Compl., at 13). Green
alleges Peterson "implemented, retained, and carried out policies that violated the constitutional rights
of Plaintiff." (Am. Compl., at 13).
'
\ ’
8. Defendant Barbo
Green states defendant Barbo is an "Assistant Director" at MSOP. (Am. Compl., at{2019 U.S. Dist.
LEXIS 9}.11). Green claims Barbo "approved the forcible unclothed visual body strip search of
Plaintiff''without any "reasonable suspicion or justification to approve the unconstitutional strip search .
. . .." (Am: Compl., at 11). Green also claims that "[djespite: Defendant Barbo's knowledge that Plaintiff
was already in the lawful custody of the Carlton County Sheriff's office, Defendant Barbo authorized
MSOP employees . . ..to,suit-up in full riot gear. . -using excessive force on Plaintiff
" (ECF No.
12, at 12). Green alleges Barbo "implemented, retained, and-carried.out policies that violated the..
constitutional rights of Plaintiff." (Am. Compl., at 13), •
II. LEGAL STANDARD
When determining a Rule 12(b)(1) motion, courts "must distinguish between a 'facial attack' and a*
'factual.attack' on jurisdiction." Carlsen v. GameStop, Inc:, 833 F.3d 903, 908 (8th Cir. 2016) (quoting
Osborn v. United States, ,918.F.2d 724,. 729.n.6 (8th Cir.,1990.)). In a facial attack, like that at issue
here, 'the court restricts itself to the face of the pleadings, and the non-moving party receives the
same protections as it would defending against a motion'brought under Rule 12(b)(6).'" Carlsen, 833
F.3d at 908 (quoting Osborn, 918 F.2d at 729 n.6). . '
'
In deciding a Rule 12(b)(6) motion, a court accepts as.true all well-pleaded factual allegations and
then determines "whether they plausibly give rise to an entitlement to{2019 U.S. Dist. LEXIS 10}
relief." Ashcroft'y. Iqbal, 556 U.S. 662, 664, 129 S. Ct.,.1.937, 173 L. Ed. 2d 868 (2009). The.court
must draw reasonable inferences in the plaintiff's favor.-Zinkv. Lombardi, 783 F-3d 1089, 1098 (8th
Cir. 2015) (citation omitted). "To survive a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to relief that is plausible on its face." Sletten & Brettin
Orthodontics v. Cont'l Cas. Co., 782 F:3d 931, 934 (8th Cir. 2015) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 547, 127 S. Ct. 1955, 167 L Ed. 2d 929 (2007).); accord Zink, 783 F.3d at
1098. Facial plausibility, of a claim exists "when the plaintiff pleads factual contept that allows the court
to draw the reasonable inference that the defendant is liable for the misconduct alleged." Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S..Ct. 1937, 173 L, Ed. 2d868 (2009) (citing Twombly, 550 U.S. at 555).
Although a complaint need not be detailed to be sufficient, .it must contain "[fjactual allegations . .
enough to raise a. right to.relief-above the speculative-level." Twombly,15,50 U.S. at 555 (citation
omitted); see id. ("The pleading must contain something more . . . than ... a statement of facts that
merely creates a suspicion of a legally cognizable right of action." (quotations and citation omitted)).
Additionally, complaints are insufficient if they contain "naked assertions devoid of further factual .

lyhcases

4

© 2020 Mafthew Bender & Company, Inc.', a member Of the LexisNexis Group. All 'rights reserved. Use’of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.
a

enhancement." Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at 557 (internal quotation marks
omitted)).
■ !n-assessing a pro se complaint, the court applies "less stringent standards than formal pleadings
drafted by lawyers." Erickson v. Pardus, 551 U.S. 89; 94,127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007)
(per curiam) (quotation and citation omitted);{2019'-U;S. Dist. LEXIS 11} accord Jackson v. Nixon,
747 F.3d 537, 541 (8th Cir. 2014). "If the essence, of an .allegation is discernible," then the court, in
applying a liberal construction to pro se complaints, "should construe the complaint in a way that
permits the layperson's claim to be considered within the proper legal framework." Solomon v. Petray,
795 F.3d 777, 787 (8th Cir. 2015) (quoting Stone v. Harry, 364 F.3d 912, 914 (8th Cir.2004)). Despite
the liberal construal of such complaints/ the pro se plaintiff "still must allege sufficient facts to support
the Claims advanced." Stringer v. St.' Janies P-1 Sch. Dist, 446 F.3d 799, 802 (8th Cir. 2006) (quoting
Stone, 364 F.3d 912; 914 (8th Cir. 2004)). Thus, pro se litigants "must set a claim forth in a manner
'• which, taklhg the pleaded facts as- true, 'States' a claim as a matter of lav;." Stringer, -446 f .3d at 802
(quoting Cunningham v. Ray, 648 F.2d 1185, 1186 (8th Cir. 1981)).:
III. ANALYSIS

'

‘

■'

Green asks the Court to declare Defeh’dants' actions illegal and unconstitutional; to order the
Defendants "to cease the use of Protective'Isolation/Administrative Restriction, the use of excessive
force, unclothed visual body strip searches, [and] illegal searches and seizures without justification(s)";
to enjoin Defendants from "engaging’ in the same or similar practices [listed above]"; for actual or
nominal damages; and the costs of the-suit. (Am. Compl., at 2223). Green's claims fail for multiple
reasons. Some of'Green's requested relief, for injunctive relief and money damages is barred by the
Eleventh Amendment. Green also{2019 U.S. Dist. LEXIS 12} fails to state plausible, legally
cognizable claims on excessive force, unreasonable search and seizure, procedural and substantive
due process, and unconstitutional policies.
A. Some of Green's Requested Relief is Barred
. Green sues all Defendants^ their official and individual capacities. Green seeks declaratory and
injunctive relief, as-well as monetary'damages.'but does not differentiate how the relief sought applies
to Defendants.
The Eleventh Amendment bars suit against a state, absent a state's consent to filing of such .a suit.
Alabama v. Pugh, 438 U.S. 781, 782, 98 S. Ct. 3057, 57 L. Ed. 2d 1114 (1978) (per curiam). This
immunity applies to claims against officials sued in their official capacities. See, e.g'.; Will v. Mich.
Dep't of State Police, 491 U.S. 58, 71, 109 S. Ct. 2304,- 105 L: Ed. 2d 45 (1989), A federal court lacks
jurisdiction over claims’barred by the Eleventh Amendment. Pennhurst-State School-8, H'osp. v.
Halderman, 465 U.S. 89, 121, 104 S. Ct. 900,792. Ed. 2d 67 (1984). Thus, "Section 1983 plaintiffs
may sue individual-capacity defendants-only for money damages and'official-capacity defendants only
for injunctive relief." Brown v. -Montoya, 662 F.3d 1152, 1161 n.5 (10th Cir. 2011) (citing Haferv. Melo,
502.U.S. 21, 30, 112 S. Ct. 358, 116-L. Ed, 2d 301 (1991)); Greenawalt v. Indiana Dept, of Corn, 397
F.3d 587, 589 (7th Cir. 2005) ("[S]ection 1983 does not permit injunctive relief against state officials
' sued in their individual as distinct from their official'capacity."); Wolfe'v. Strankman, 392 F.3d 358, 360
n.2 (9th Cir. 2004) (noting that injdhctive and equitable relief are not available in § 1983
individual-capacity suits). To the extent Green seeks injunctive relief against Defendants in their •
individual capacities,-the Court{2019 U.S. Dist. LEXIS 13} recommends dismissal. And to the extent
Greeh seeks monetary relief against Defendants iri their-official capacities,-the .Court also -'•' • ' > r
-» •
;l •
recornmfends dismissal.
:

•

i

v.:

' •! T*

B. Excessive; Force Claims..

lyhcases

I

..

<T

‘

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use. of this product is subject to
the restrictions and terms and conditions of the Matthe.w Bender Master Agreement.

J

The Eighth Amendment prohibits government authorities from using excessive force against
prisoners. Andrews'v. Neer, 253 F.3d 1052, 1061 (8th Cir. 2001). While Green is not a prisoner,
federal courts consistently hold that Eighth Amendment principles apply to non-prisoners in
government custody, like pre-trial detainees and civilly committed individuals. See id] Serna v.
Goodno, 567 F.3d 944, 948-49 (8th Cir. 2009). Excessive force claims have two requirements. "The
first requirement tests whether, viewed objectively, the deprivation of rights was sufficiently serious.
The second requirement is subjective and requires that the inmgte prove that the prison officials had a
sufficiently culpable state of mind." Irving v. Dormire, 519 F.3d 441, 446 (8th Cir. 2008).
The Court first evaluates Green's excessive force claim against Marvel. Green claims Man/el used
excessive force when restraining him on March 24, 2010'. (Am. Comp!., at 9). Green states that
"Marvel, while trying to remove Plaintiff's Do Rag and,shoes, twisted' the handcuffs and did damage to
Plaintiff's wrists." (Am. Compl., at 9). Green also states that Marvel did hot apply force "than effort to
maintain or restore, discipline, but instead{2019 U.S. Dist. LEXIS 14} ... to harm Plaintiff." (Am.
Compl., at 9). The Eighth Circuit has established that the application of handcuffs, without evidence of
a more permanent injury, is insufficient to support an excessive force claim. See Crumley v. City of St.
Paul, 324 F.3d 1003, 1008 (8th Cir. 2003) ("[F]or the application of handcuffs to amount to excessive
force there must be something beyond allegations of minor injuries."); Foster v. Metro. Airports
Comm'n,.914 F.2d 1076, 1082 (8th Cir. 1990) ("We do not believe that. . . allegations of pain as a
result of being handcuffed, without some evidence of more permanent injury, are sufficient to support
[a] claim of excessive force."). Viewed objectively, Marvel cuffing Green is not a sufficiently serious
deprivation of rights to meet the first requirement of an excessive force claim. See Serna, 567 F.3d at
948-49. Because Green's claim against Marvel does not-meet the first requirement of an excessive
force claim, the Court does not reach the.second requirement. Green does not present a plausible
excessive force claim against Marvel, nor does he cite any caselaw or arguments against this Eighth
Circuit precedent. See Iqbal, 556 U.S. at 678-81. The Court recommends dismissing Green's ■
excessive force claim against Marvel.
.- .
The Court next evaluates Green's excessive force claims against Swenson and Sayovitz. Green
alleges Swenson "attacked{2019 U.S. Dist. LEXIS 15} Plaintiff from behind" and "shoved Plaintiff
from behind" on March 24, 2010. Green alleges Sayovitz "informed Assistant Director Defendant
Barbo about his intention to be granted approval for the 'unclothed visual body search"' and told
Green that he would place handcuffs on Green. (Am. Compl., at 11). Green does not allege any
painful effects or lasting injury from Swenson's actions. Sayovitz's actions at most amount to verbal
threats, which "are not constitutional violations cognizable under § 1982." Martin v. Sargent, 780 F.2d
1334, 1338 (8th Cir. 1985). Viewed objectively, Green's claim against Sayovitz is not a sufficiently
serious deprivation of his rights to meet an excessive force claim. See Serna, 567 F.3d at 948-49.
Because Green's claim against Sayovitz does not meet the first requirement of an excessive force
claim, the Court does not reach the second requirement. Even when taking Green's allegations in the
light most favorable to him, the Court does not find a plausible excessive force claim against either
Defendant. To the extent Green alleges any excessive force claims against Swenson and Sayovitz,
the Court recommends dismissal.
.
_
Finally, the Court notes that Green claims that Cory Vargason, anA-Team member at MSOP, jumped
on Green's back and began choking{2019 U.S. Dist. LEXIS 16} him. (Am. Compl;, at 8). The Court
'. - does not address this allegation for an excessive force claim because.Cory Vargason'is not a named
defendant in this suit.
C. Unreasonable Search and Seizure Claims

lyhcases

P. -

6

© 2020‘Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

V.

"Involuntarily committed civil detainees have a Fourth Amendment right to be free from unreasonable
searches and seizures similar to that of pretrial detainees." ,Evenstad v. Herberg, 994 F. Supp. 2d
995,' 1002 (D. Minn.'2014) (citing Serna, 567 F.3d at 948). Whether the.search or seizure of a civilly
committed MSOP individual is reasonable'depends on whether a legitimate government interest
. outweighs the invasion .of personal rights involved. Serna, 567 F.3d &t 949. To determine
■’reasonableness, "[c]ou'rts must Consider;, the Scope of ,the particular intrusion, the manner in which it is
conducted, the justification for initiating it, and the place in which it is conducted." Id. (quoting Bell v.
Wolfish, 441 U.S. 520, 559, 99 S/Ct. 1861,.60.L Ed. 2d 447 (1979)).
;
.Green alleges Defendants violated the Fourth Amendment by placing him in HSA for extended
periods'of time. (Am.' Compl., at 5r6)”Xjdecisjon to place a civilly committed individual in HSA "if made
by a professional,’is presumptively valid'. I ..[and] liability may be imposed only when the decision by
the professional is sucti a substantial /departure from accepted professional judgment, practice, or
'standards as to demonstrate tfiat’the'peTson respdrisible{2019 U.S.Dist. LEXIS 17} actually did not
base the decision on such a judgment." Ydungberg v. Romeo, 457 U.S. '30,7, 323, 102 S. C't. 2452, 73
L. Ed. 2d 28 (1982).
Green has a constitutionally protected interest in reasonably non-restrictive confinement conditions.
See id. at 324. But the decision to place Green into HSA temporarily is presumptively valid and the
complaint contains no-allegation of facts that support a reasonable inferencelhat Defendants involved
in this decision did not base it On accepted professional judgment. Green states he was placed in
HSA for over twenty-four hours on September;28, 2010 and on March 24, 2011 but does not specify
-how long in either instance. (Am. Compl y at 5^6). His allegations lack facts about the scope, manner,
and justification of this: HSA placement; He^gives no explanation as to why his extended stays in HSA
were unreasonable. Even liberally construingGreen’s amended complaint,, taking all the facts pled as
true and making all reasonable inferences-in-Green's favor-, the-factual allegations on Green's HSA
placements do not nudge the claim "across the line from conceivable to.plausible." Iqbal, 556 U.S. at
678-81. The complaint lacks factual allegations to support a facially plausible claim that Green's HSA
placements violated his Fourth Amendment rights. The Court recommends dismissing this{201? U.S.
Dist) LEXIS 18} claim.
'
v
Green also alleges Defendants violated.the'Fourth'Amendment by subjecting hirh to UVBSS onSeptember 28/2010 and March 24, .2011; (Am.-Compl-. at 5, 11). What constitutes an unreasonable
search is a^acT'specific inquiry but the Supreme Court has found that visual bbdy.searches of
prisoners and pretrial detainees, while affecting the privacy interests of inmates, are legal if conducted
•Tin a reasonable manner. Be// v. Wolfish., 44TU.S...520, 559, 99 S. Ct. 1861, 60 L.- Ed. 2d 447 (1979).
Even though .civilly committed individuals.are not prisoners, courts have consistently,found their rights
to be similar to that of pretrial detainees-. See e.g.,-Serna, 567 F.3d at 948-49. Green alleges he was
searched in two instances after being placed into HSA and stated one of-these searches was for
1 contraband that Was not found. (-ECF No; 5i at'23)-Green states'his clothes were forcibly cut off the
first time and he'only complied the second time because he did not want to repeat his first-experience.
(Am.-Compl., at 5).
The Court does not find that Green has pled facts showing these searches to be unreasonable under
the Fourth Amendment. The government interest-in safe androrderly prisons is significant and .the
Supreme Court has taken judicial notice,of therunauthorized use,of drugs that plague our prison{2019
U-.S. Dist. LEXIS 19} systems. See Bloom..Rutherford, 468'U.S.'576!, 590:.-104.S,-Gt. 3227,-82.L'. Ed.
2d 438 (1984). While MSOP is not a prison, it is a treatment facility that faces .someof the same -. ■
safety concerns. MSOP has legitimate concerns in conducting an UVBSS when. an ^individual at .
MSOP enters a new area, such as when Green ent'ered'HSAin'both instances. MSOP'is promoting

lyhcases

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this.product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.
• '.!

the security of its facility by ensuring that-individuals are not concealing drugs or weapons when .leaving and entering new areas of the facility. See e.g. Goffv. Nix, 803 F.2d 358, 366-67 (8th Cir. ■
1986) (finding UVBSS constitutional'under the Fourth Amendmeht because prisons have legitimate
safety concerns): Green has not pled any facts about these two instar,ces.sug^esting the searches
were cohducted unreasonably. While Green states-his clothes were forcibly cut off in the first
instance, MSOP has to unclothe an individual to conduct-an UVBSS and Green refused to undress.
(Am. Compl., at 5). Green does not plead any facts suggesting either of these searches were ■
conducted in an abusive, offensive, or otherwise unreasonable manner. This Court recommends
dismissal of Green's Fourth Amendment claims concerning the-searches on September 28, 2010 and
March 24, 2011.
Green further alleges that a search on June 13, 2012 was,unlawful. According to Green, he was i:
subjected to an UVBSS while he{2019 U.S. Dist. LEXIS 20} was served with an arrest warrant by the
Carlton County Sheriffs Department. (Am. Compl., at 10-11). Green claims this particular search was
"humiliating" because it was done in the presence of female staff and an MSOR nurse. (Am. Compl.,
at 11). Given what the Supreme Court has said about the,strong institutional interests in maintaining
security, and the unusual circumstances here, Green's'allegation of a body cavity search in front of
female staff by .itself does not state a claim for violating the Fourth Amendment. See Story v. Foote,
782 F.3d 968, 971 (8th Cir. 2015). Green does not allege that the search itself was done by a female
staff member; he admits Peterson, the male Deputy Carlton pounty Sheriff performed the search.
(Am. Compl., at 11); see Richmond v. City of Brooklyn Center, 490 F.3d 1002, 1008 (8th Cir. 2007)
("[Sjtrip searches should be conducted by officials of the'safne sex a's the individual to be searched.").
Here, the presence of the Carlton County Sheriff and the drcumstances of effecting'an arrest warrant
on Green implies an emergency situation, or at the very least a heightened security.situation, ..wtiere
MSOP had to take additional measures to ensure security. (See Am. Compl., at 11), In heightened
security circumstances, the presence or participation of female officers during a UVBSS of a
male{2019 U.S. Dist. LEXIS 21} inmate have been found constitutional. See 28 C.F.R. § 511.16
("Visual searches may be conducted by staff members of. the opposite sex in emergency, situations
with the Warden's authorization [in a prison]."); see e.g., Story, 782 F.3d at-972 (finding constitutional
the circumstances of a female officer that may haye observed a male inmate's UVBSS through
surveillance video). Green does not allege facts suggesting.the search was performed in front of
female staff for an illegitimate interest, unrelated.to MS.OP's security'interests. -The Court does-not find
that Green alleges a plausible claim and recommends dismissal. • ■
D. Procedural Due Process
To establish'a procedural due process violation, "a plaintiff, first must establish that his protected
liberty or property interest is at stake. Second, the plaintiff must prove that the defendants] deprived
him of such an interest without due process of the law " Schmidt v. Des Moines Pub. Sch., 655 F.3d
811, 817-18 ,(8th' Cir. 2011). If there is a protected interest at stake, the Court should, "then consider
what process is due by balancing the specific interest that was affected, the likelihood that the [MSOP]
procedures would result in erroneous deprivation and the [MSOP's] interest in providing the process
that it did, including the administrative costs{2019 U.S. Dist. LEXIS 22} and burdens'of providing
additional process." Senty-Haugen v.Goodno, 462 F.3d 8?6, 886 (8th Cir. 2006).
Green argues he "was denied due process by MSOP Defendants due to his confinement in HSA."
(Am. Compl., at 20). As.a1 person civilly committed to MSOP, Green enjoys a protected-but not-, *
unlimited-liberty interest jn freedom from unnecessary-bodily restraint. See Youngberg,:451 U.S. at'
.3-19-20. Therefore,. Green, .arguably had a protected liberty interest at stake when' he was -placed in
-1.
;<HSA, yyhieh affords him gome measure of due process-/' v. -

lyhcases

8

© 2020 Matthew Bender & Company) Inc.) a member ofthe LexisNexis Group. AlUights reserved. Use of this' product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.'

But,,even if placement in HSA impliGates.protected interests,-the amended .complaint contains no
factual allegations that show Green received less than the. process he was due. Green provides
-conclusory allegations that the policy was unconstitutional, that it did not support a legitimate
goverpment interest, and that.he did.not receive any due process protections. (Am. Compl;; at 7)..But
he makes no mention of whether he invoked MSOP's grievance, process to challenge his HSA
placement to a review panel. (See Am. Compl:, at 19:(outlining MSOP's. grievance procedure when an
individual is placed in.HSA)). In facb.Green does not claim he-attempted to report his placement or
that his complaints were denied.in any form .by MSOP,employees. Even construed{2019 U.S. Dist.
LEXIS 23} broadly, Green's complainhdpes.not plead sufficient facts to present a facially plausible
claim that he was denied procedural due process. To the extent Green brings a claim that the
procedure by which was placed into and kept in HSA violated his procedural due process rights, the
Cou'rt recommends dismissal for failure tp State a claim upon which relief may be granted.
: «
. E. Substantive Due Process
I

,

"To establish a substantive due process'violation, the [Plaintiff] must demonstrate that a fundamental
right was violated and t'hat'[the'Defendants'] conduct shocks the conscience." Fo/kerfs.v. City ol
Waverly, la.] 707 F.3d 975, 980 (8th Cir. 2013).""Only in'the rare situation when the state actiqn is truly
egregious and extraordinary will a substantive due process claim arise. Strutton v. Meade, 668 F.3d
549, 557 (8th Cir. 2012). .The question is "whether.the extent or nature of the restraint ) .'. is such as to
violate due process." Youngberg', 457 U.S. at 320. To determine the answer, the Court must balance
Green's "liberty interest!] against the re.levant.state interests." Id. at'321. Furthermore, when deciding
whether a civilly committed person’s liberty interest in freedom from unreasonable restraint, "courts
must show deference td the judgement exercised by a qualified professional."' Youngberg, 457 U.S. at
322. As stated above, that decision is "presumptively valid"{2019 U.S. Dist. LEXIS 24} and liability is
only imposed when the professional substantially departs from professional judgment or practice. Id.
at 322.
. '
Green alleges his due processrights wereviolafed when he. was confined in HSA. (Am. Compl:, at
20). Under Youngberg, Green has a constitutionally protected interest in reasonably horirestrictive
confinement conditions. Id. at 324. But-the'decision to temporarily place Green into HSA is
presumptively valid and the complaint contains no allegations of facts supportihg a reasonable - - •
-., inference that the’Defendants involved in'this decision did not base it on accepted professional
judgment. Green failed to plead sufficient facts to withstand a motion to dismiss and the Court
recommends dismissal of this claim.
Green also claims the "acts and omissions,of Defendants constitute a violation of the.d.ue process
clause.. .
(Am. Compl., at 20). He alleges.Marvel "twisted the handcuffs and did.damage'to .
Plaintiff’s wrists,!' that Swenson."attacked Plaintiff from behind" and "shoved Plaintiff from behind," and
that Sayovitz "informed Assistant Director Defendant Barbo about his intention to be granted approval
for.the unclothed visual body search." (Am. Compl., at 11). None of these actions rise to behavior
that{2019 U.S. Dist. LEXIS 25} is "truly egregious" or that "shocks the conscience." Strutton, 668 F.3d
at 557; Folkerts, 707 F.3dat 980. Green does not plead any facts that rise to a substantive due
process violation. The Court recommends dismissal of this claim,
F. Unconstitutional Policies
,

’

•

•

.

'

.

r

..

.

Green claims MSOP's policies on UVBSS dre unconstitutional and asks the.court to "order
Defendants to cease the use [ofrthese searches];." (Am. Compl.,-'at 22). Green allege'S that MSOt3 employees-forcibly'-cut his clothes off after he refused to an UVBSS and-that;'MSOP.employee's forced
an UVBSS in the presence of female staff. (Am,■.'Compl1., at 10-11). But Green does hot identify''what

lyhcases

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved..Use of this product is subject, to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.
,
.

parts of the UVBSS policy at MSOP are unconstitutional or how they are unconstitutional. As ,
explained above, MSOP has legitimate security concerns in performing these searches and the Eighth
Circuit previously found MSOP's UVBSS searches constitutional in different settings. See e.g. Goft,
803 F.2d at 366-67 (finding UVBSS constitutional under the Fourth Amendment because prisons have
legitimate safety concerns); Beaulieu v. Ludeman, 690 F.3d 1017, 1030 (8th Cir, 2012) ("[T]he
MSOP's policy of performing unclothed body searches of patients before they leave the secure
perimeter is not unreasonable."). Because Green makes conclusory statements on MSOP's use of
UVBSS as unconstitutional without sufficient{2019 U.S. Dist. LEXIS 26} factual or legal explanation,
the Court recommends dismissal of this claim.
Green also repeatedly states MSOP's policies were unconstitutionally applied to him and he
summarizes certain MSOP policies. (Am. Compl., at 16-19). But, again, Green does not plead any
facts explaining which sections of MSOP's policies his claims are aimed against, why these sections
are unconstitutional, or how they have been applied to him unconstitutionally. Because Green fails to
plead any plausible claim about the constitutionality of MSOP's policies, the Court recommends
dismissal.
G. Other Concerns
Green asserts a number of other claims. Green argues his Fourth and Fourteenth Amendment rights
were violated when he was denied access to his property while in FISA. (Am. Compl., at 6). Green did
not identify the property MSOP supposedly deprived him. Without providing that information, he
cannot claim that MSOP deprived him of a protected property interest. Green faijs to state a claim
upon which relief may be granted. Similarly, for the claim that MSOP unlawfully denied Green his
property, Green has ndt alleged he was treated differently'from other sim'ilariy situated individuals based on a prohibited form of discrimination. Green fails{2()19 U.S. Dist. LEXIS 27} to state a
violation of his Fourteenth Amendment equal protection rights.
Green argues the following restrictions while he was in FISA were illegal: only being allowed one book
at a time, being served meals in his cells, not being allowed to participate in any off unit activities, and
being' restricted to one thirty-minute period out of his cell.per day. (Am. Compl., at 6). Green does not
state what laws these restrictions violated or provide any caselaw to support his allegations of MSOP's
restrictions being illegal. Green's claims do riot establish plausible claims and the Court recommends
dismissing these claims.
FI. Qualified Immunity
"Qualified immunity shields government officials frorn liability unless their conduct violates clearly
established statutory or constitutional rights of which a reasonable person would know." Ferguson v.
Short, 840 F.3d 508, 510 (8th Cir. 2016). Courts examine "(1), whether the facts alleged or shown,
construed most favorably to the plaintiffs, establish a violation of a constitutional right, and (2) whether
that constitutional right was clearly established at the time of the alleged misconduct, such that a
reasonable official would have known that the acts were unlawful." Small v. McCrystal, 708 F.3d 997,
1003 (8th Cir. 2013)'
FHere, Green's claims either do not establish.constitutional{2019 U.S. Dist. LEXIS 28} violations or
Green has failed to meet his pleading burden. To the extent no.constitutional violation is established,
Defendants are entitled to qualified immunity. To the extent Green failed to meet his pleading burden,
his'pleading deficiencies deprive the'Cdurt of the ability to analyze the claims fully, including whether
Defendants are entitled to qualified immunity.on those particular claims.
IV. RECOMMENDATION

lyhcases

10

© 2020 Matthew Bender & Company, inc., a member of the LexisNexis'GrOup. Alf rights reserved. Use of this product is-subje'ct to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

r«

V

Based on the foregoing, and all the files, records','and proceedings hereinr IT-lS'HEREBY
r
;
' ■ RECOMMENDED as follows: •
•, 1 ^Defendants' Motions to Dismiss, (£CF Nos. 22, 35, 53, 66), be GRANTED.
2. Green's Amended Complaint (ECF No. 14), be DISMISSED WITH PREJUDICE.
I !

Date: January 30, 20T9
: /s/St'even E. Rau'

^ . ,

''' ■

Steven E. Rau
United States Magistrate;Judge
District of Minnesota

..'.j

.

>

»

'
j■ .

Green v. Lake, et al.

■

. ,

:

.:

‘ • •

Case No. 14-cv-1056 (ADM/SER)
Footnotes
\

A .

i

1
1
Defendant Bogenhol filed.a motion to dismiss; Defendants Bastien.,Lake, and Peterson.filed a motion
to dismiss; and Defendants. Moser, Linkert, ..Manvel, Swenson, and Sayovitz filed two motions to
dismiss: one in their official capacities and one in their individual capacities. While the other
Defendants listed have not filed motions to .dismiss, the Court’s Report and Recommendation applies
to all Defendants because Green's complaint asks for relief against all Defendants.
• <2
...............................................

*

•

i

!r»•;

.

•

,;

.Defendants argue Green's .claims are precluded ,by a ruling in the class-action, litigation of Karsjens v.
■Jessop, where the Court found MSOP> pQlicjes constiitutional; 336 F. Supp. 3d 974, 998-98 (D. Minn.
2018). While this Court agrees that Karsjeps is relevant to the.analysis.here, the Court ”emphasize[d]
that its conclusions solely address Plaintiffs' ciasswide claims of systematic constitutional
violations"-and did not foreclose individual claims on alleged constitutional violations. Id. at 997.
Accordingly, the Court finds it appropriate to address Green's claims with respect to the specific
enforcement of those policies as applied to.Green....
• :• t.i1 * >f
3 '
.•...
The Court uses UVBSS to refer to botlrthe Singular and plural versions (unclothed visual body strip
t
■■ search and unclothed visual body strip searches). . •
4
. t

■

Administrative Restriction "means any measure utilized by MSOP to maintain safety and security,
protect possible evidence and prevent the continuation of suspected criminal acts." (ECF No. 26, at 3)
(quoting MSOP Policy No. 301:084). ThiisHncludes "increased monitoring of the client, limiting
programming accessibility, reduction in or loss-of privileges, restricted access to and use of !
• possessions,,and separation of a client .from the. normaltiving environment." (ECF. No. 26, at.3) ...
■■ (quoting MSOP Policy No. 301.084).tWhile Administrative Restriction is not defined jn the complaint,
the Court may consider MSOP Policy defining it because regulations of an agency are public re.co;pd.
Taradejnav. General Mills, Inc., 909 F. Supp. 2d 1128, 1133 n.4 (D. Minn,. 2012).
5
t

lyhcases

11

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew,(3ender.Master Agreement*
*
.i • •

4

*,
t

J

!
A plaintiff must allege Defendants' personal involvement or responsibility for the constitutional
violations to state a § 1983 claim. Ellis v Norris, 179 F.3d 1078,.1079 (8th Cir. 1999). Here,'the
complaint only pleads actions by Defendants Sayovitz, Marvel, Swenson, Barbo, Bastien, Peterson,
and Shaller. Green does not allege any personal; involvement by Defendants Berglund, Moser,
Zimmerman, Lake, and Bogenhol. The only time these Defendants are named is when Green states
the positions of the Defendants he is suing. (Am. CompL, at’3-4). Green fails to state a claim against
Defendants Berglund, Moser, Zimmerman, Lake, and'Bogenhol, and the Court recommends
dismissing any claims against these Defendants.
'...'

;

;
;

,\

l•

(.

:

1

t

i

:
•
;

(
\
:■

■

j

1

<■

lyhcases

12

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

